No. 20-_____

IN THE SUPREME COURT OF THE UNITED STATES

DERRICK IVAN JIM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Tenth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Derrick Ivan Jim respectfully requests that this Court grant him leave to proceed
in forma pauperis. In support of this request, Petitioner states that undersigned counsel was
appointed pursuant to the Criminal Justice Act, 18 U.S.C. ยง 3599(a)(2), by the United States Court
of Appeals for the Tenth Circuit, and that Petitioner is unable to retain counsel and pay the costs
attendant to proceeding before this Honorable Court.
WHEREFORE, Petitioner Derrick Ivan Jim respectfully requests that he be granted leave
to proceed in forma pauperis.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s Shira Kieval
Shira Kieval
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

